Iwlls

S'i-

Supreme Court, U.S.
FILED
IN THE

OCT 0 h 2021
r

SUPREME COURT OF THE UNITED STATES

OFFICE OF THE CLERK

JORGE PKJLTKK,

— PETITIONER ,

(Your Name)
vs.

UNITED STATES OF AMERICA.

— RESPONDENT(S) .

ON PETITION FOR A WRIT OF CERTIORARI TO

The United States Court Of Appeals
For The Fourth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Jorge Petter,c/o:26624083 (Pro se)
(Your Name)

Federal Correctional Complex-1
Post Office Box 5000
(Address)

Oakdale, Louisiana 71463
(City, State, Zip Code)

Not applicable

September 27, 2021

(Phone Number)

© 2008 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

QUESTION(S) PRESENTED
No person shall be held to answer for a capital, or otherwise crime, unless
on a presentment or indictment of a Grand Jury, except in cases arising in the
land or naval forces, or in the Militia, when in actual service in time of War
or public danger; nor shall any person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be compelled in any criminal
case to be witness against himself, nor be deprived of life, liberty, or
property,"without due process of law;" ...United States Constitution Amendment 5
Criminal actions — Provisions concerning — Due process of law and just
compensation clauses. To ensure that Incarcerated pro se filers are not convicted
for procedures put in place to respond to GOVID-19 by the Federal Bureau of
Prisons, Louisiana , • • • prevented or delayed the ability of incarcerated
filers to meet filing deadlines — A Ground Zero for 00VID-19 . See Fifth Circuit
Court of Appeals General Order 2020-7.

The question presented, on which the circuits are deeply divided, is
whether were the Court of Appeals below failed to issue a standing order
specifically extending deadlines to file all pending Panel Rehearing and
Rehearing En-banc cases due to GOVID-19 pandemic thus, violates Petitioner
Petter's "due process right guaranteed under the Fifth Amendment," as did in
United States Supreme Court Standing Orders 589 issued on March 19 and April
15, 2020. See In re Orders, 2020 U.S. LEXIS 1643 & 2196 (U.S. Mar. 19, Apr. 15,
2020), rescinded on July 19, 2021 (2021 U.S. LEXIS 3591, U.S. July. 19, 2021).

(i)

LIST OF PARTIES

gXj All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

(ii)

TABLE OF CONTENTS
1

OPINIONS BELOW

2

JURISDICTION

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

4

STATEMENT OF THE CASE

5-9

REASONS FOR GRANTING THE WRIT

9

CONCLUSION

INDEX TO APPENDICES
APPENDIX A ...Exhibit 1. Document/Evidence

App. 001-014

• • • Exhibit 2. Document/Evidence

App. 015-019

APPENDIX C ...Exhibit 3. Document/Evidence

App. 020-028

APPENDIX D

...Exhibit 4. Document/Evidence

App. 029-057

APPENDIX E

...Exhibit 5. Document/Evidence

App. 058-082

APPENDIX B

APPENDIX F ••.Exhibit 6. Document/Evidence

(iii)

App. 083-

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES
5th Amendment to the United States
Constitution ......................

3, 5,

In re Order, 2020 U.S.LEXIS 1643 and 2196
U.S. March 19 and April 15, 2020 ........ ....................... .

5,

5th Circuit General Order 2020-7
March 25, 2020 .......................................... ................... .

6,

Hicks v. United States, 137 S.Ct. 2000,
No. 16-7806 (June 26, 2017).............................. .

7,

Skilling v. United States, 561 U.S. 358, 414, 130
S. Ct. 2896, 177 L.ed. 2d 619 (2010)....... ..................

8,

Tapia v. United States, 564 U.S. 319, 335, 131,
S.Ct. 2382, 180 L.Ed. 2d 357 (2011) .............................
.
United States v. Marcus, 560 U.S. 258, 266- 267 (2010) « • • •
STATUTES AND RULES

8,
8,

5th Amendment to the United States
Constitution .............. ..............

. 3, 5,

4th Circuit Local Rule 40(c) ........ ..

. 3, 4, 8

21 U.S.C § 841(a)(1) and (b)(1)(A) and 846

6, 7,

Fed. R. Evid. 201(b) ...........................

5,

Fed. R. Grim. P. 52(b)

7,

OTHER
First Step Act of 2018 Pub, L. No. 115-391,
132 Stat. 5194 ................ ............................
C0VID-19

3, 7,
4, 5,6,

(iv)

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

|x£ For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix_-__ to
the petition and is
IX2t reported at 2021 U.S. App. LEXIS 5400
; or, / reconsideration
Ixt has been designated for publication but is not yet reported; or,/ Panel Opinion
m is unpublished. 829 Fed. Appx. 627, 2020 U.S. App. LEXIS 36401, 2020
WL 6791563 (4th Cir. Va., Nov 19, 2020)
The opinion of the United States district court appears at Appendix
the petition and is

B

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
ixJ is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix-------- to the petition and is
[ ] reported at _______________________________________ . or
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

to the petition and is
[ J reported at___ _
___________ _________________ _. or
[ ] has been designated for publication but is not yet reported- or
[ ] is unpublished.
’
1.

court

to

JURISDICTION

fed For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was July 7. 2021; February 23, 2021 and November 19, 2020 (Collectively).
[X]"No petition for rehearing was timely filed in my case.v due to G0VID-19 Pandemic"
[ ] A timely petition for rehearing was denied by the United States Court of
and a copy of the
Appeals on the following date: -----------------order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including _
A
in Application No.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
----------------------------------, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Amendment 5 of the United States Constitution Criminal actions
— Provisions concerning — Due process of law and just compensation clauses,
provides:
No person shall be held to answer for a capital, or otherwise crime,
unless on a presentment or indictment of a grand Jury, except in cases
arising in the land or naval forces, or in the Militia, when in actual
service in time of War or public danger; nor shall any person be subject
for the same offense to be twice put in jeopardy of life or limb; nor shall
be compelled in any criminal case to be witness against himself, nor be deprived
of life, liberty, or property " without due process of law, " • • •
4th Circuit Local Rule 40(c) provides that: " The only grounds for an
extension of time to file a petition, or to accept an untimely petition, are as
follows: (i) the death or serious illness of counsel, or of a member of counsel's
immediate family (or in the case of a party proceeding without counsel, the
death or serious illness of the party or a member of the party's immediate
family); or (ii) an extraordinary circumstance wholly beyond the control of
counsel or of a party proceeding without counsel.
First Step Act of 2018 ("First Step Act"), Pub. L. No. 115-391, 132
Stat. 5194 :
In December 201.8, Congress enacted §404 of the FIRST STEP Act which made
§2 and §3 of the FSA retroactive. FIRST STEP Act, § 404(a), (b).

3.

STATEMENT OF THE CASE
The question in this case is whether and to what extent a Incarcerated pro
se filer charged with filing deadlines may assert a " good faith " defense " Due
to extraordinary circumstances related to the COVID-19 virus. To overcome a
good faith defense in the Fourth, Third, Sixth , Seventh, Eighth; Tenth and
Eleventh Circuits, the Appellant must have an extraordinary circumstance, which
is defined as "serious personal illness or death in counsel's-(pro se) immediate
family," All it takes to deny petitions for panel rehearing and petitions for
rehearing en banc under the logistical issues related to the COVID-19 virus is
a finding that " the court strictly enforces the time limits for filing petitions
for rehearing and petitions for rehearing en banc in accordance with Fouth Circuit
Local Rule 40(c). The petition in this case is denied as untimely."^ See App. 001-003.
This case is an ideal vehicle for resolving the question presented. Petitioner
filed a reconsideration by asserting that " in light of the on going public health
concerns relating to G0VID-19, along with Federal Bureau of Prisons Counselor H .
Smith, of FCC Oakdale, in Louisiana 71463 Memorandum in support of the motion to
reconsider dated March 4, 2021, " establishing and showing a good faith defense
that petitioner received the Panel Opinion and Judgment issued on November 19, 2020,
on December 02, 2020 via FCI-1 Legal Mail Process - already time bared, therefore,
requesting additional time in resubmitting his rehearing- See App. 020-028.

4th Circuit Local Rule 40(c) provides that: " The only grounds for an
1)
extension of time to file a petition, or to accept an untimely petition, are as
follows: (i) the death or serious illness of counsel, or of a member of counsel's
immediate family (or in the case of a party proceeding without counsel, the
death or serious illness of the party or a member of the party's immediate
family); or (ii) an extraordinary circumstance wholly beyond the control of '
counsel or of a party proceeding without counsel .

4.

REASONS FOR GRANTING THE PETITION
A.

Statutory Framework

The Fifth Amendment of the United States Constitution makes it unlawful
for " any person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury, • • • ; nor shall be
subject for the same offense to be twice put in jeopardy of life or limb; nor
shall be compelled in any criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, ' without due process of law ', ... "
In re Orders, 2020 U.S. LEXIS 1643 and 2196 (U.S. Mar. 19, Apr. 15, 2020),
and rescinded on July 19, 2021 (2021 U.S. LEXIS 3591, U.S. July 19, 2021), this
Court acknowledged that In light of the ongoing public health concerns relating
to C0VID-19, the following shall apply to cases prior to a ruling on a petition
for a writ of certiorari, and issued a Standing Order 589 specifically extending
the deadline to file " any petition for a writ of certiorari due on or after
the date of this order is extended from 90 days to 150 days from the date of the
lower court judgment, order denying discretionary review, or order denying a
timely petition for rehearing. See Rules 13.1 and 13.3." • • •
2
B. . Factual Background
I

Federal Bureau of Prisons, FCC-Oakdale, Louisiana and the COVID-19
Pandemic

Federal Bureau of Prisons was established in 1930 to provide more
progressive and humane case for federal inmates, to professionalize the prison
service, and to ensure consistent and centralized administration of federal prison.
It is the mission of the Federal Bureau of Prisons to protect society
by confining offenders in the controlled environments of prisons and communitybased facilities that are safe, humane, cost-efficient, and appropriately secure,
2)
On December 17, 2020, Petitioner Petter, submitted a signed, dated and
properly prepared PETITION FOR PANEL REHEARING (Dkt. No. 13) for filing
in the 4th Circuit court and delivered to FCI-1 Oakdale prison authorities for
forwarding pursuant to Houston v. Lack, 487 U.S. 266 (1988) requesting petition
for panel rehearing of Substantial Material Statement of Facts overlooked in
decision, Pursuant to Fed.R.App.P. 40. See App. 029-057. Each of these exhibits
is a matter of public record not subject to reasonable dispute, and thus, is
judicially noticeable. See Fed.R.Evid. 201(b): Blatt v. Pambakian, No. 19-cv-7046,
5.

and that provide work and other self-improvement opportunities to assist offenders
in becoming law abiding citizens.
In response to the GOVID-19 Pandemic and the related Statewide
shelter-in-place, the Federal Bureau of Prisons, Louisiana Department of
Public Safety & Corrections, Mississippi Department of Correections, and the
Texas Department of Criminal Justice , specifically put in place procedures
prevented or delayed the ability of Incarcerated filers to meet filing deadlines.
The condition in Federal Correctional Complex-1 (FCC-Oakdale) were Petitioner is
housed hit the most and was Ground-zero for GOVID-19 Pandemic. See App. 083also see Fifth Circuit Standard General order 2020-7 issued on March 25, 2020
and rescinded on January 22, 2021.

Petitioner was charged in the Superseding.indictment filed on January
25, 2007, on Count ONE alleged a violation of 21 U.S.C. § 841(a)(1) and (b)(1)(A)
and 846. Petitioner agreed to plead guilty to those provisions in his Statement
of Facts (App. 043-057) entered in to record along with his plea agreement to the
multiple-object drug conspiracy charge under 21 U.S.C § 846 on March 26, 2007.
At his plea colloquy hearing, the district court, for the record, failed to
correct the plea agreement to include and indicate and reflects Petitioner Petter
did infact plead guilty and did plead guilty to conspiracy to distribute 35.5
grams or more of cocaine base (App. 055). Because of the nature of the conspiracy
charge, the penalties for each object of the conspiracy are relevant. On August 08,
2007, Petitioner was sentenced to 372 months imprisonment. See App. 058-082.

432 F.Supp.3d 1141, 2020 U.S. dist. LEXIS 31380, 2020 WL 821040, at *16 (C.D. Cal.
Jan 9, 2020)(taking judicial notice of video of news interview because it is
publicly available and from a source whose authenticity could not be questioned.. See
App. 010-014.
Petitioner Petter asserted in his Motion to reconsider the 4th circuit
court order entered on February 23, 2021 [ App. 003 ], that: (a) As specified in the
Superseding indictment filed on 01/25/2007, Count (ME alleged a violation of 21 U.S.C.
6.

However, Here, After identifying an unpreserved but plain legal error,
this Court likewise routinely remands the case so the court of appeals may
resolve whether the.error affected the defendant's substantial rights and
implicated the fairness, integrity, or public reputation of judicial
proceedings-and so (again) determine if the judgment must be revised, this time
under Rule 52(b) as did in Hicks v. United States, 137 S.Ct. 2000, No. 16-7806
(June 26, 2017). ( "We remand in cases like these not only when we are certain
that curing the error will yield a different outcome, but also in cases where we

§ 841(a)(1) and (b)(1)(A) and 846. Petitioner Petter agreed to plead guilty to
those provisions in his Statement of Facts entered in to record along with in his
plea agreement to the multi-object drug conspiracy charge under 21 U.S.C. § 846 on
March 26, 2007. In his plea colloquy, the district court, for the record, failed
to correct the plea agreement to include and indicate and reflects Petitioner Petter
agreed to plead guilty and did in Fact plead guilty to conspiracy to distribute
35.5 grams or more of cocaine base. Because of the nature of the conspiracy charge,
the penalties for each object of the conspiracy are relevant. At the time of
Petitioner's sentencing, in August of 2007 to 372 months imprisonment, the trial
court stated for the record that:
THE COURT: Well, let me say something for the record.
For Mr. Harmon and Mr. Petter, if the defendant admitted to a
paragraph in the statement of facts, he is bound by it in the
statement of facts, it has already been previously admitted, and the
Court's not going to sit here and go back over something the
defendant's already admitted because the law simply requires
that the defendant not only object but to come forward with an
affirmative showing that something's in error. But where he's
already admitted that, that is certainly a waste of the court's
time, and I'm looking at United States versus Terry at 916 F.2d 157,
page 162, Fourth Circuit case.
I'm just putting you on notice, Mr. Harmon, we are not going to
spend any time replowing things already admitted by the defendant (See
Sent. Transc. pages 3-4 attached as Appendix "B" to pro se informal opening brief
under Appeal No. 19-7904.). In fact the district court expressly adopts the
Presentence Investigation Report attached as Appendix "J".; (b) In 2009,-Petitioner
moved for a reduction in sentence pursuant to the First Step Act. Section 404 of
the First Step Act permits a district court to inpose reduced sentence upon a
defendant convicted of a "covered offense" as if certain provisions of the Fair
Sentencing Act of 2010 ("FSA"), Pub.L. 111-220, 124 Stat. 2372, were in effect
at the time the defendant commited the "covered offense." ; (c) Petitioner Petter
appeals the district court's order denying his motion to reduce his sentence
under the First Step Act of 2018 ("First Step Act"), Pub. L. No. 115-391, 132
Stat. 5194.; (d) On November 19, 2020, after a fully briefed timely appeal, the
7.

think there's a reasonable probability that will happen." ) See, e.g., Skilling
v. United States, 561 U.S. 358, 414, 130 S.Ct. 2896, 177 L.Ed. 2d 619 (2010)
(harmless error); Tapia v. United States, 564 U.S. 319, 335, 131, S.Ct. 2382,
180 L.Ed. 2d 357 (2011)(plain error); United States v. Marcus, 560 U.S. 258, 266267, 130 S.Ct. 2159, 176 L.Ed. 2d 1012 (2010)(Plain error).
In this current case at bar, " A plain legal error infects this
judgment," thus, Petitioner Petter was wrongly sentenced to

31 years in prison

under a defunct statute. No doubt, too in Here, as in Hicks, there's a
reasonable probability that cleansing this error will yield a different
outcome.

4th Circuit Court panel issued a Judgment order affirming the district court
judgment and remanded for further proceedings [ See App. 004-014 ].; (e) On
December 17, 2020, Petitioner Petter submitted and filed his petition for
panel Rehearing, after received 4th circuit court's judgment order entered on
November 19 , 2020, via FCI-1 Oakdale Legal mail process on December 02 , 2020,
(Fourteen days already timed bared, see also Counselor H. Smith's memorandun
in support of motion to reconsider attached as Appendix "0" along with proof of
received USPS print stamped envelope dated 11/19/2020 containing 4th circuit's
judgment order entered on 11/19/2020, showing Petitioner Petter also received
it on December 02, 2020 via FCI-1 legal mail process - already time bared attached as Appendix "N" ).; and (f) • • • in light of the on going public health
concerns relating to 00VH)-19, the institution where petitioner is housed has
been on lockdown status since March 23, 2020, and has been operating in a
modified operation with very limited access to Law Library, Printer and Copier,
citing Supreme Court's Standing Order: 589 issued on March 19, 2020, relating
to G0VID-19, extending all deadlines to 150 days to file petition for a writ
of certiorari, attached as Appendix "P" in support. See App. 020-028

8.

The question presented arises in virtually most Incarcerated pro se
filers during COVID-19 Pandemic. There is every reason to expect this trend to
continue.

CONCLUSiON

The petition for a writ of certiorari should be granted.

Respectfully submitted,
By:

c
2^:
Jorge Petter,c/o:26624083 ( Pro se )
Date: September

, 2021

9.

